HHS/OIG, Audit -"Review of the Medicaid Drug Rebate Program State of New Hampshire As of June 30, 2002,"(A-01-03-00013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid Drug Rebate Program State of New Hampshire As of June 30, 2002," (A-01-03-00013)
January 22, 2004
Complete Text of Report is available in PDF format (199 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of the Medicaid drug rebate program in the State of New Hampshire.  The
objective of our audit was to evaluate whether the State agency had established adequate accountability and internal controls
over the Medicaid drug rebate program.  We found that procedures for reconciling and reporting the pending drug rebate
amounts and corresponding ageing of these rebates on the Medicaid Quarterly Expenditure Report submitted to Centers for
Medicare and Medicaid Services (CMS) were not established.  In addition, we determined that the State agency did not
have procedures in place to monitor the collection of interest due from manufacturers.  We recommended that the State
agency; (1) develop a pending drug rebate ageing schedule for use in the proper preparation of the CMS report, and (2)
continue its efforts to develop procedures for the proper monitoring and collection of interest owed by manufacturers for
overdue drug rebate amounts.  The State agency agreed with our recommendations and has developed corrective action
plans to address the issues identified in our report.